                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

11   TO: AIGI       I   File Number: I91100023                                 I   Date: 04 March 2002

11 Subject: Closeout Memo                                                      I           Page 1 of 1


           There was no closeout written at the time this case was closed. The following information was
           extracted from the file in conformance with standard closeout documents.

           Our office was informed that the subject1 was allegedly involved with Time and Attendance
           discrepancies that were being addressed by DPM. The subject's Notice of Proposed Removal was
           dated October 8, 1991.

           Accordingly this case is closed.




                         Prepared by:                   Cleared by:

                        Agent:          Attorney:     Supervisor:     AIGI
        Name:



      Signature &
         date:
